 U.S. Department of the Interior
 Office of Inspector General

                              Audit Report

Virgin Islands Housing Finance Authority
        Government of the Virgin Islands




                          Report No. 2002-I-0009
                                 December 2001
                                                                                    V-IN-VIS-001-01-M

                 United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL

                                           Caribbean Region
                                      Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802


                                                                                December 31, 2001

Mr. Ira Hobson
Chairperson, Board of Directors
Virgin Islands Housing Finance Authority
210-3A Altona - Frostco Building, One Stop
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report "Virgin Islands Housing Finance Authority, Government of the Virgin Islands"
         (Report No. 2002-I-9)

Dear Mr. Hobson:

       This report presents the results of our audit of the Virgin Islands Housing Finance Authority.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by January 31, 2002. The response should provide
the information requested in Appendix 4 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                               Sincerely,


                                               Arnold E. van Beverhoudt, Jr.
                                               Audit Manager, Caribbean Region

cc:   Governor of the Virgin Islands
      President, Legislature of the Virgin Islands
EXECUTIVE SUMMARY
                   The Virgin Islands Housing Finance Authority was established by
BACKGROUND         statute in 1981 and began operations in 1984 as a public
                   corporation and autonomous instrumentality of the Government of
                   the Virgin Islands. The Authority was created to stimulate low
                   and moderate income housing construction and home ownership
                   through the issuance of revenues bonds to obtain funds to be used
                   for low interest mortgage loans to qualified purchasers. The
                   Authority is vested with the power to issue bonds and notes,
                   borrow capital, accept Federal grants, and invest in property and
                   securities to meet its objectives.

                   The Authority is governed by a 5-member Board of Directors and
                   its Executive Director is appointed by the Board. The Authority
                   has established 28 developments, 19 on St. Thomas and 9 on
                   St. Croix, consisting of 926 residences and housing lots for
                   qualified applicants. The Authority also administered four rental
                   projects on St. Croix that were managed by a private management
                   firm under guidelines established by the U.S. Department of
                   Housing and Urban Development (HUD).


                   The objective of the audit was to determine whether the Virgin
OBJECTIVE          Islands Housing Finance Authority (1) used Federal and local
                   funds for their intended home ownership program purposes, (2)
                   ensured that applicants met eligibility requirements for home
                   ownership, (3) ensured that contractors fulfilled their contractual
                   obligations, and (4) generated sufficient revenues to meet its
                   operating expenditures.


                   The Housing Finance Authority did not (1) always use
RESULTS IN BRIEF   competitive procurement procedures to select development
                   contractors, (2) always ensure that program participants met
                   eligibility requirements, and (3) not have adequate control over
                   its financial operations. Specifically, we found that:

                         - The Authority often selected development contractors
                   noncompetitively and without the benefit of invitations for bids or
                   requests for proposals. As a result, there was no assurance that
                   the Authority obtained the best possible prices or the best quality
                   product or service for its affordable housing developments. In
                   addition, because the Legislature directly appropriated funds for
                   contractor claims that were in dispute, the Authority was placed
                   in the position of having to make questionable payments of as
                   much as $1.95 million to two development contractors.

                         - The Housing Finance Authority gave some Authority
                   employees preferential treatment that was not available to
                   members of the general public and did not always ensure that
                   program participants met eligibility requirements. We found that
                   (1) nine Authority employees were given a total of 21
                   interest-free personal loans totaling $60,566, (2) two other
                   Authority employees were given lower-than-normal prices and
                   preferential treatment in the purchase of home lots, and (3) at least
                   six housing program participants were given financial assistance
                   although they did not meet eligibility requirements.

                         - The Authority did not have adequate control over
                   receivables, collections and deposits, and bank accounts and did
                   not generate sufficient revenues to meet operating expenses or
                   fund required infrastructure investments. As a result, the
                   Authority (1) was owed about $809,500 loaned to two housing
                   communities and $38,500 in rental charges, (2) did not have
                   current and accurate information on the financial status of the
                   Authority’s accounts, and (3) was unable to effectively use bond
                   proceeds totaling $33.7 million that was available to provide
                   mortgage loans to eligible applicants. We also found that a
                   former member of the Authority’s Board of Directors may have
                   violated Virgin Islands conflict of interest laws regarding a legal
                   services contract she had with the Authority.


                   We made 11 recommendations to the Virgin Islands Housing
RECOMMENDATIONS    Finance Authority and 1 recommendation to the Legislature of the
                   Virgin Islands to address the deficiencies disclosed by the audit.


                   In its response to the draft report, the Housing Finance Authority
AUDITEE COMMENTS   concurred with 10 of the 11 recommendations addressed to the
AND OFFICE OF      Authority. However, we did not receive a response to the
INSPECTOR          recommendation addressed to the Legislature. Based on the
GENERAL            response received, we consider eight recommendations resolved
                   and implemented, two recommendations resolved but not
EVALUATION         implemented, and two recommendations unresolved.




                                 2
CONTENTS
                                       ................................................ 1
EXECUTIVE
SUMMARY

                                       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION                           Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                                       Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                                       Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           7
RESULTS OF AUDIT                       Selection of Development Contractors . . . . . . . . . . . . . . .                             7
                                       Determination of Participant Eligibility . . . . . . . . . . . . . . .                        15
                                       Management of Financial Operations . . . . . . . . . . . . . . . . .                          20

                                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
RECOMMENDATIONS
                                       1. Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              29
APPENDICES                             2. Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . .                30
                                       3. Response to Draft Report* . . . . . . . . . . . . . . . . . . . . . . .                    31
                                       4. Status of Recommendations . . . . . . . . . . . . . . . . . . . . . .                      43




*
 Redactions were made to Appendix 3 of this report pursuant to the Freedom of Information Act (FOIA)
exemption 6, 5 U.S.C. section 552 (b)(6).



                                                            3
4
INTRODUCTION
               The Virgin Islands Housing Finance Authority was established by
BACKGROUND     statute in 1981 and began operations in 1984 as a public
               corporation and autonomous instrumentality of the Government of
               the Virgin Islands. The Authority was created to stimulate low
               and moderate income housing construction and home ownership
               through the issuance of revenues bonds to obtain funds to be used
               for low interest mortgage loans to qualified purchasers. The
               Authority is vested with the power to issue bonds and notes,
               borrow capital, accept Federal grants, and invest in property and
               securities to meet its objectives.

               In February 1990, the Legislature signed into law the Low and
               Moderate Income Affordable Housing Act to (1) provide safe,
               sanitary, aesthetically acceptable, and high quality affordable
               housing for persons of low and moderate income by stimulating
               home ownership opportunities; (2) provide Government-owned
               land and site improvements to reduce the cost of housing sites; (3)
               encourage investment and development of factory-built housing to
               reduce construction costs; (4) provide financing for owner-
               occupied and rental housing developments; (5) offer incentives,
               including tax exemptions, to encourage the construction of
               affordable housing; and (6) provide a mechanism for establishing
               and maintaining a Housing Trust Fund to facilitate the construction
               of new owner-occupied and rental housing developments, and
               provide assistance to home buyers and renters.

               The Authority is governed by a 5-member Board of Directors
               comprised of the Commissioner of Housing, Parks, and
               Recreation; the Director of Management and Budget; and three
               persons not employed by the Government of the Virgin Islands.
               The three non-government members are appointed by the
               Governor with the advice and consent of the Legislature, and
               serve 2-year terms. The Executive Director of the Authority is
               appointed by the Board of Directors.

               The Authority has established 28 developments, 19 on St. Thomas
               and 9 on St. Croix, consisting of 926 residences and housing lots
               for qualified applicants. In addition, the Authority had plans for
               three additional developments, two on St. Thomas and one on
               St. John. The Authority also administered four rental projects on
               St. Croix that were managed by a private management firm under
               guidelines established by the U.S. Department of Housing and
               Urban Development (HUD).

                             5
                The objective of the audit was to determine whether the Virgin
OBJECTIVE AND   Islands Housing Finance Authority (1) used Federal and local
SCOPE           funds for their intended home ownership program purposes, (2)
                ensured that applicants met eligibility requirements for home
                ownership, (3) ensured that contractors fulfilled their contractual
                obligations, and (4) generated sufficient revenues to meet its
                operating expenditures. The scope of the audit included a review
                of the Authority’s operations during fiscal years 1999 and 2000
                and other periods as appropriate.

                To accomplish our audit objective, we interviewed Authority
                officials and reviewed applicable laws, rules, and regulations;
                files related to procurement transactions, development
                contractors, program participants, housing loans, collections and
                deposits, bank statements, and Authority personnel; and minutes
                of Board meetings.

                Our audit was conducted in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that were considered necessary
                under the circumstances. The "Standards" require that we obtain
                sufficient, competent, and relevant evidence to afford a
                reasonable basis for our findings and conclusions.

                As part of our audit, we evaluated the internal controls at the
                Authority to the extent we considered necessary to accomplish the
                audit objective. Internal control weaknesses were identified in
                the selection of development contractors, the determination of
                participant eligibility, and the management of financial
                operations. These weaknesses are discussed in the Results of
                Audit section of this report.         The recommendations, if
                implemented, should improve the internal controls in these areas.


                The Office of Inspector General has not issued any reports on the
PRIOR AUDIT     Virgin Islands Housing Finance Authority within the past 5 years.
COVERAGE        However, in 1989 we issued an audit report on the Authority’s
                housing programs (see Appendix 2).




                              6
RESULTS OF AUDIT
                               The Housing Finance Authority (1) did not always use
OVERVIEW                       competitive procurement procedures to select development
                               contractors and experienced cost overruns totaling as much as
                               $2.8 million on two housing developments; (2) did not always
                               ensure that program participants met eligibility requirements and
                               gave some of its employees preferential treatment, including
                               interest-free personal loans totaling $60,566; and (3) did not have
                               adequate control over receivables, collections, deposits, and bank
                               accounts and did not generate sufficient revenues to meet
                               operating expenses or funds required infrastructure investments.
                               The cost overruns on two developments occurred in part because
                               of the political involvement of the Virgin Islands Legislature. The
                               other deficiencies occurred because the Authority did not always
                               follow established policies and procedures related to competitive
                               procurement and participant eligibility and did not have adequate
                               policies and procedures to ensure that transactions involving
                               employees were handled fairly and that financial operations were
                               properly controlled and accounted for.

                               Construction contracting is generally governed by the procurement
SELECTION OF                   requirements contained in the Virgin Islands Code
DEVELOPMENT                    (31 V.I.C. § 235 and § 236). Specifically, the Code states that the
CONTRACTORS                    procurement of contractual services are to be based on
                               competitive bids and that notices inviting competitive bids are to
                               be published in newspapers of general circulation within the
                               Virgin Islands. In addition, the Joint Rules and Regulations for
                               the Virgin Islands Affordable Housing Program reiterate the
                               importance of competitive bidding. Despite these requirements,
                               development contractors were often selected noncompetitively,
                               without the benefit of invitations for bids or requests for
                               proposals from interested contractors. As a result, there was no
                               assurance that the Authority obtained the best possible prices or
                               the best quality product or service for its affordable housing
                               developments. In addition, because the Legislature directly
                               appropriated funds for contractor claims that were in dispute, the
                               Authority was placed in the position of having to make
                               questionable payments of as much as $1.95 million to two
                               development contractors.

Contracts Valued at        As of the end of fiscal year 2000, the Authority had completed
$14.7 Million Were Awarded 19 projects (home and lot sales) on St. Thomas and 9 projects
Noncompetitively           (primarily home sales) on St. Croix. We randomly selected for
                           review 10 of these 28 projects (5 on St. Thomas and 5 on

                                             7
St. Croix). However, because Authority personnel could not
locate the files related to one development project, we only
reviewed the other nine projects in our sample. Although the
Authority had a selection committee in place comprised of at least
three Authority employees, we found that five of the nine
development contractors in our sample had been selected on a
sole source basis for contracts valued at a total of $14.7 million.
For example:

      - The Authority initiated the Water Bay development
project in December 1988 to provide 58 condominium style units
to low income families on St. Thomas. However, neither an
invitation for bids nor a request for proposals was ever issued for
the project. Instead, the Authority’s then-Executive Director
asked the developer if he was interested in building the project
and notified the developer that he could expect to make $10,000
profit on the sale of each unit built. Although the Authority’s
Rules and Regulations state that developers must "demonstrate the
availability of sufficient financial resources to obtain adequate
construction financing to complete the construction of the
proposed development or project," the then-Executive Director
took the developer to a local bank and offered to cosign a loan, on
behalf of the Authority, so that the developer could obtain
necessary financing. However, the bank still did not approve the
loan request, and the Authority then assisted the developer in
obtaining financing at another local bank. An initial contract
(called a "Developer Agreement" by the Authority) was executed
in December 1988 in the amount of $3.77 million.

       - The Authority also initiated the Work and Rest
development project in December 1988 to provide 50
single-family homes to first time, low-income home buyers on
St. Croix. Although Authority officials stated that invitations for
bids had been issued for this project, the project files did not
include any evidence of competitive procurement. In fact, in a
1993 letter to the developer, the Authority’s then-Executive
Director stated that "in 1989 you begged for this project." An
initial Developer Agreement was executed in December 1988 in
the amount of $2.66 million.

      - In 1997, the Authority issued an invitation for bids to
survey and subdivide parcels 92 and 93 at Estate Solitude,
St. Croix. Although three companies submitted bids, only the
lowest bidder, at $16,270, submitted its bid within the specified
deadline. However, the bid was rejected because the Authority
considered it to be too high. Two years later, in 1999, the


              8
                                        Authority entered into a noncompetitive contract with the
                                        company that had been the highest bidder, at $18,400, in the 1997
                                        solicitation and whose bid had been submitted after the specified
                                        deadline. Further, the 1999 contract was for surveying and
                                        subdividing only parcel 93 at Estate Solitude at a price of
                                        $20,400, and the contract was later amended to increase the price
                                        to $22,900. If the Authority had accepted the lowest bid in 1997,
                                        it would have obtained the survey and subdivision of both parcels
                                        92 and 93 at a price that would have been $6,630 lower than it
                                        ultimately paid for the survey and subdivision of only parcel 93.
                                        At the September 26, 2001, exit conference on the preliminary
                                        draft of this report, the Authority’s Acting Executive Director
                                        stated that the 1999 contract required the contractor to "redesign"
                                        the subdevelopment in addition to surveying and subdividing the
                                        parcel of land.

St. Thomas Project                      Although a Developer Agreement for $3.77 million was executed
Had a $1.5 Million Cost                 in December 1988 with the contractor for the Water Bay project
Overrun                                 on St. Thomas, construction of the 58 condominium style units had
                                        not started by September 1989, when Hurricane Hugo struck the
                                        Virgin Islands. Therefore, in April 1990, the Authority and the
                                        contractor entered into a separate contract for $580,000 for the
                                        development of infrastructure facilities at the Water Bay site. In
                                        September 1990, the parties also entered into an Agreement for
                                        Infrastructure Subsidy, 1 which provided the $580,000 to fund the
                                        infrastructure facilities and represented the total amount of the
                                        contractor’s proposed profit of $10,000 per unit. Therefore, the
                                        total contemplated contract price was increased to $4.35 million,
                                        or $75,000 per unit.

                                        During the construction of the development, the contractor
                                        claimed that cost overruns occurred because Executive
                                        Order No. 313 had made the building codes stricter after
                                        Hurricane Hugo. However, the contractor did not submit any
                                        contract change orders to address the claimed cost overruns.
                                        Further, the Authority took the position that no additional sums
                                        were owed to the contractor. For example:
                                              - In a June 23, 1992 memorandum to the Authority’s
                                        then-Executive Director, a financial advisor to the Authority
                                        stated, "The amount of Authority funds which have to date been
                                        expended on Water Bay is unprecedented . . . [The contractor] has
                                        received more than $20,000 per unit in Authority subsidy.
                                        Typically, developers on St. Thomas receive no more than
__________
1
  An "Agreement for Infrastructure Subsidy" is the vehicle used by the Authority to provide funding for affordable
housing developers to construct infrastructure facilities. The amount of such infrastructure subsidy results in a
reduction in the selling price of the units to eventual home buyers.


                                                        9
$10,000 per unit in Authority subsidy. If you add in the additional
money being contemplated, [the contractor’s] per unit subsidy
increases to more than $24,000 per unit."

      - In a March 18, 1993 letter to the developer, the
Authority stated, "The Board of the Virgin Islands Housing
Finance Authority (VIHFA) has considered your company’s
request for payment of the alleged cost overrun. . . . It is the
position of the Board that no additional sums are owing to [the
contractor] from VIHFA for the construction of the Project. As
you know, the VIHFA has already expended substantial sums in
excess of amounts agreed to in its development agreements with
[the contractor]."

Despite these statements, the Authority further subsidized the
project by paying an additional $1.05 million for the alleged
overruns, which were neither anticipated, negotiated, nor
supported by contracts, agreements, or change orders. This
included paying almost $55,000 for warranty work that was the
responsibility of the developer and $639,000 that was funded
through special appropriations made by the Virgin Islands
Legislature, as follows:

      - Act No. 5878, enacted in July 1993, appropriated
"$250,000 to the Virgin Islands Housing Finance Authority to be
used for payment to [the contractor] for the Water Bay Project."
Although, at the time, the Authority’s Board of Directors stated
that about $976,200 in excess of the agreed upon contract price
had already been paid to the contractor, the Board supported the
appropriation because it represented "the difference between
actual construction costs and the payments made" to the
contractor.

      - Bill No. 21-0232 was passed by the Legislature in
August 1996 with an amendment to appropriate "the sum of
$389,000 from the interest on bond proceeds to the Virgin Islands
Housing Finance Authority for payment to [the contractor] to
complete payment for the construction of the Waterbay project."
The then-Governor of the Virgin Islands vetoed the Bill, but the
Governor’s veto was overridden by the Legislature and the Bill
was enacted as Act No. 6117 in September 1996. The
Authority’s then-Executive Director agreed to payment of the
$389,000 despite disagreeing with the contractor’s calculations
to arrive at the $389,000 amount. The Legislative Senator who
had lobbied for passage of Bill No. 21-0232 and for the override
of the Governor’s veto was voted out of the Legislature in


             10
November 1996. By late-1997, the former Senator had become
the contractor’s legal counsel and in May 1999 negotiated for the
payment of the $389,000 by the Authority, including picking up a
check in the amount of $82,104 payable to himself for legal fees.

Although Act No. 6117 clearly stated that the $389,000
appropriation was to "complete payment" to the contractor, in
December 2000, the Legislature passed Bill No. 23-0274 (signed
into law by the Governor in February 2001 as Act No. 6388) to
again appropriate funds to the "Virgin Islands Housing Finance
Authority for payment of legal claims against the Authority,"
including $450,000 to be paid to the contractor of the Water Bay
project. In a letter sent to the members of the Legislature in
December 2000, prior to the passage of Bill No. 23-0274, the
Authority’s Executive Director stated, "Although both of these
entities [the Water Bay and Work and Rest contractors] have also
received Legislative funding in the past, neither of them has any
legitimate or legal claim against the VIHFA at this time ."
(Emphasis in original.) With regard to the Water Bay contractor,
the Executive Director further stated:

      [The contractor] has been at odds with the Authority
      since 1990, relative to the construction of the Water
      Bay Condominiums, and has already received funds
      from the Legislature (Act No. 6117), which were to
      have brought this matter to a final conclusion.
      However, since then, [the contractor] has filed yet
      another case against the Authority on this same issue.
      That case has not been heard and no settlement or
      judgement of any kind has been reached to date."

As of July 2001, the contractor’s claim was still in litigation
before the Territorial Court of the Virgin Islands, but attempts
continued to force the Authority to release the $450,000
appropriated by Act No. 6388. If this $450,000 is added to the
additional amounts already paid by the Authority, the Authority
will have paid a total of $5.85 million for the Water Bay
development, or about $1.5 million more than the $4.35 million
negotiated construction cost. That represents a construction cost
of almost $101,000 per unit as compared with the $75,000 per
unit negotiated cost for the 58 condominium style apartments. Of
the $1.5 million total cost overrun, $1.09 million directly resulted
from special appropriations enacted by the Legislature.




             11
St. Croix Project Had a     A Developer Agreement for $2.66 million was executed in
$1.3 Million Cost Overrun   December 1988 with the contractor for the Work and Rest project
                            on St. Croix. However, construction of the single-family homes
                            had not started by September 1989, when Hurricane Hugo struck
                            the Virgin Islands. Therefore, in January 1990, the Authority and
                            the contractor entered into a new Developer Agreement with the
                            price remaining the same. Subsequently, during the period of
                            October 1990 to October 1991, the Authority awarded the
                            contractor a series of Agreements for Infrastructure Subsidy
                            totaling $508,000. The two parties eventually agreed to the
                            construction of 50 units at an average cost of about $75,000 each,
                            for a total cost of about $3.76 million for the proposed 50 units.

                            During the construction of the development, the contractor
                            claimed that cost overruns occurred primarily because of
                            implementation of the Uniform Building Code (UBC) after
                            Hurricane Hugo. However, the contractor did not submit any
                            contract change orders to address the claimed cost overruns or
                            provide documentation to justify the claimed cost overruns.
                            Further, during the period of March 1993 to June 1994, the
                            Authority disputed all claims made by the contractor. For
                            example:

                                 - In a March 3, 1993 letter to the Authority’s
                            then-Executive Director, the Authority’s then-attorney stated,
                            "Any cost overrun is legally the sole obligation of the developer."

                                   - In a March 12, 1993 letter to the contractor, the
                            Executive Director stated, "The VIHFA believes that it has
                            over-extended itself in assisting you not only financially but in
                            man hours on this project. Please note that in 1989, you begged
                            for this project. VIHFA tried to advise you to decrease the house
                            size and amenities but you insisted that you could build for
                            $58,000. At that time, you were offered subsidy of $3,000 per
                            unit and you accepted. The increase to $18,000 per unit more
                            than covers Hugo, UBC, etc."

                                  - In a June 2, 1994 letter to the contractor’s attorney, the
                            Authority’s attorney stated that "the UBC did not apply to the
                            contractor's residential project, nor did VIHFA agree to
                            compensate the developer for any additional costs he alleges he
                            incurred as a result of his alleged compliance. In the event [the
                            contractor] was required by some other agency of Government to
                            comply with the UBC, a written change order should have been
                            negotiated prior to construction to account for any impact on
                            construction costs. No written change order was negotiated or


                                         12
executed with VIHFA, nor did [the developer] notify VIHFA of
any specific changes which were being made to comply with the
UBC."

Based on the advice of legal counsel, the Authority’s Board of
Directors initially opposed any settlement with the contractor that
called for additional payments. For example, during a
August 1994 meeting of the Board of the Directors, the
then-Chairperson stated, "I have difficulty supporting something
that [the contractor] has already been compensated for, and that
is he has received all the resources set aside from the project. He
has not completed his part of the bargain." During the same
Board meeting, the Authority’s attorney stated that "it is a classic
mismanagement of the project [by the contractor] as it
progressed."

Despite these objections, the Authority eventually subsidized the
project by paying $1.3 million against alleged cost overruns.
When added to the amounts previously paid to the contractor, the
construction cost for the 50 single-family homes totaled almost
$5.1 million, or about $102,000 per unit as compared with the
original negotiated cost of about $75,000 per unit. Included in the
additional $1.3 million paid to the contractor by the Authority
was $855,000 specifically appropriated by the Legislature, as
follows:

     - Act No. 6031, enacted in October 1994, appropriated
$55,000 for "Payment to [the contractor] for Work at Estate Work
and Rest-STX."

      - Act No. 6084, enacted in October 1995, appropriated
"the sum of $300,000 from the Interest Revenue Fund established
pursuant to Title 33, Section 3026a, Virgin Islands Code, to the
Housing Finance Authority for payment to [the contractor] for cost
overruns associated with the construction of affordable housing
units at Estate Work and Rest on St. Croix." A then-Senator
(other than the Senator involved in the Water Bay, St. Thomas
project) was instrumental in the passage of this appropriation.

      - Act No. 6226, enacted in April 1998, appropriated "a
principal amount not to exceed $200,000 to [the contractor] for
costs overrun on construction of the Estate Work and Rest
Housing Development."

      - Act No. 6388, enacted in February 2001, appropriated
"the sum of $350,000 to the Virgin Islands Housing Finance


             13
Authority for the purpose of providing a final payment satisfying
a legal claim against the Authority by [the contractor]." In a letter
sent to the members of the Legislature in December 2000, prior
to the enactment of Act No. 6388 (Bill No. 23-0274), the
Authority’s Executive Director stated, "Although both of these
entities [the Water Bay and Work and Rest contractors] have also
received Legislative funding in the past, neither of them has any
legitimate or legal claim against the VIHFA at this time ."
(Emphasis in original.) With regard to the Work and Rest
contractor, the Executive Director further stated:

      Relative to the proposed appropriation of $350,000,
      for [the contractor], we are unaware of any claim
      against the Authority, as none has been presented.
      However, we are aware that he is owed a small
      balance from a previously approved appropriation
      (Act No. 6088), for which the funds are on reserve
      pending drawdown from [the contractor].

Additionally, in an April 2001 letter to the contractor, the
Authority’s Executive Director pointed out that in July 1994, the
contractor and the Authority "agreed to settle [the contractor’s]
cost overrun dispute at Work & Rest for $400,000. Of that
amount, the Authority would be reimbursed $50,000 for surveys
of encroachment errors at the site. The net amount due [to the
contractor is] $350,000." The Executive Director also stated that,
despite this settlement agreement, the contractor was paid
$300,000 in February 1996 (pursuant to Act No. 6084) and an
additional $200,000 in August 1998 (pursuant to Act No. 6226).
The Executive Director continued, "In total, [the contractor] was
paid $500,000.00. The previous agreement dated July 26, 1994,
was for $350,000.00. Consequently, [the contractor] was
overpaid in the amount of $150,000.00." The Executive Director
concluded, "There is no evidence of any further ‘legal claims’
against the VIHFA. Therefore, it is our opinion that the
$350,000.00 appropriation approved in Act No. 6388 is not
warranted, and amounts to yet another over-payment to [the
contractor]." According to an Authority official, the Board of
Directors, under pressure from a current Senator, voted to release
the $350,000 to the contractor, with $50,000 to be refunded to the
Authority. The net amount of $300,000 was released to the
contractor in July 2001, resulting in a total cost overrun on the
project of about $1.3 million above the originally negotiated
$3.76 million construction cost.




              14
                           In our opinion, the actions of the Legislature to intervene on
                           behalf of contractors in business-related disputes with the
                           Housing Finance Authority contributed significantly to the
                           increased cost of affordable housing developments. In the Water
                           Bay, St. Thomas project, the Legislature’s special appropriations
                           resulted in increased costs of about $1.09 million, or almost
                           $18,800 per unit. In the Work and Rest, St. Croix project, the
                           Legislature’s special appropriations resulted in increased costs
                           of about $855,000, or more than $17,000 per unit. In both cases,
                           the contractors had begun legal proceedings against the Authority
                           for reimbursement for claimed cost overruns and, in both cases,
                           the Authority was placed in a difficult situation by the special
                           appropriations enacted by the Legislature. In the future, the
                           Legislature should avoid involving itself in legal proceedings
                           between the Authority and contractors and, instead, allow such
                           legal proceedings to run their course. Without legislative
                           involvement, the Authority and the contractors in the two cases
                           cited above may have been able to settle outstanding claims for
                           lower amounts, to the advantage of the Authority and potential
                           low income home owners in the Virgin Islands.

                           The Housing Finance Authority did not always ensure that
DETERMINATION OF           program participants met eligibility requirements and gave some
PARTICIPANT                Authority employees preferential treatment that was not available
ELIGIBILITY                to members of the general public. Specifically, we found that (1)
                           nine Authority employees were given a total of 21 interest-free
                           personal loans totaling $60,566, (2) two other Authority
                           employees were given lower-than-normal prices and preferential
                           treatment in the purchase of home lots, and (3) at least six housing
                           program participants were given financial assistance although
                           they did not meet eligibility requirements.

Authority Employees        During the period of December 1992 to July 1999, the Authority
Were Given Interest-Free   granted 21 interest-free personal loans totaling $60,566 to nine
Personal Loans Totaling    different employees. The loans, which ranged from $170 to
$60,566                    $20,000, were used by the employees to pay for building plans
                           and blueprints, land surveys, tax liabilities, medical and funeral
                           expenses, vacation travel, computer purchases, and home
                           improvements. Further, the Authority did not begin to fully
                           account for these loans until October 2000. Of the 21 loans, 14
                           loans with balances totaling $30,866 were entirely paid off and
                           7 loans with balances totaling $29,700 remained outstanding. Six
                           of the outstanding loans with balances totaling $2,650 were
                           delinquent for periods ranging from 3 months to 6 years. The
                           Authority did not have formal collection procedures and did not
                           pursue legal action to collect on any of the delinquent loans.


                                        15
Two of the 21 personal loans, totaling $23,500, were made from
the Authority’s Special Fund account, which consisted of funds
set aside primarily for the Self-Help Program, which was
eliminated and merged with the Cistern and Slab Program in
1991. The two loans were as follows:

      - In 1994, an employee was granted a loan of $3,500 from
the Self-Help Program for "drawings, plans and specs, survey,
and location of bound posts on the lot." The loan was granted
although the Self-Help Program had been discontinued 3 years
before.

      - In 1999, an employee was granted a loan of $20,000
from the Self-Help Program for "plans, blueprints, etc." The loan
was granted although the Self-Help Program had been
discontinued 8 years before and the employee had two other loans
that were outstanding and delinquent at the time.

The 19 other personal loans were made from the Authority’s
operating account, which contained funds for the Authority’s
day-to-day operations. For example:

      - In December 1994, the Authority purchased a computer
for an employee and had the employee sign a promissory note to
repay the funds. The employee repaid the interest free loan in
February 1996. The employee also received two other
interest-free personal loans, one for $4,000 granted in1994 and
a second loan for $4,000 granted in 1996. As of June 2000, these
two loans were outstanding and delinquent, and the Authority had
not taken any collection action. In June 2000, the Authority’s
Executive Director wrote a letter to the employee concerning the
delinquent loans. The Executive Director stated, "The Authority
is due to be audited and we are still facing the possibility of being
merged with the other Housing agencies. Your experience as a
Fiscal Officer should suggest to you that financial matters such as
this need to be cleared from our books as soon as possible, before
we are cited for fiscal irresponsibility." The employee started to
make payments on the loans in July 2000.

      - In June 1995, an employee received an interest free
personal loan of $250. Although the employee never repaid the
1995 loan, he subsequently received two other loans, one for
$175 in 1996 and another for $175 in 1997. The employee
received a fourth personal loan in 1999, this one for $5,000,
although he had not repaid any of the previous loans. The
employee resigned from the Authority in December 1999, still


              16
                           owing the Authority a total of $4,850 on the four loans. The
                           employee eventually paid off the four loans by November 2000.

                                 - In 1995 and again in 1997, an employee received $800
                           "cash advances" for medical and funeral expenses, for a total of
                           $1,600. The 1997 cash advance was granted although the
                           employee had not made any payments on the 1995 advance. The
                           1995 cash advance remained delinquent without any collection
                           action being taken by the Authority until April 2000, when the
                           Executive Director wrote to the employee concerning the
                           outstanding loans. The employee paid off the 1997 loan in April
                           1999 and began making payments on the 1995 loan in June 2000,
                           and eventually also paid them that loan.

                                 - In 1997, an employee received a loan of $1,500. She
                           retired in March 2000, with a balance of $750 still outstanding on
                           the loan. As of June 2001, the Authority had not taken any action
                           to collect the outstanding amount. Subsequent to our audit, the
                           employee paid off the loan in September 2001.

                           The Authority should discontinue the practice of issuing personal
                           loans to employees and take immediate action to collect the
                           balances of outstanding personal loans. In our opinion, the use of
                           Authority funds for the purpose of making personal loans to
                           employees is a misuse of those public funds.

Authority Employees        Nine current or former Authority employees purchased homes or
Were Allowed to Purchase   home lots or received housing assistance from the Authority. Of
Home Lots at Below the     the nine employees, two received preferential treatment by being
Normal Selling Prices      allowed to purchase home lots at prices less than available to the
                           general public. Specifically:

                                 - An employee was allowed to purchase a preconstructed
                           home that was used as a model for homes to be built in a
                           development where the Authority was only selling lots. This was
                           the only case, of the developments included in our review, where
                           a model home was constructed on property designated for lot
                           sales. Although the Authority sold lots in the development to
                           eligible individuals for $15,000, the employee was allowed to
                           make a $500 deposit that was applied to the price of the lot.
                           Based on available records, it appears that the $500 deposit was
                           the only amount paid directly by the employee for the land. The
                           employee also received $52,000 in assistance from the
                           Federally-funded HOME Program, consisting of a $42,000 grant
                           and a $10,000 loan at 1 percent interest. Further, a May 16, 1996
                           memorandum from the Authority’s Director of Federal Programs


                                        17
                                         to the Home Ownership Director suggests that an attempt was
                                         made to conceal the nature of the land purchase transaction. In the
                                         memorandum, the Director of Federal Programs stated, "I told
                                         [the Executive Director] that, in my opinion, the best way to avoid
                                         the situation where someone would be able to draw comparison
                                         between the lot price charged to her versus charged to the others
                                         is to structure her deal as a package. In other words, give one
                                         price which would include the land and the house; this way, no
                                         one on the outside would really know how much is apportioned
                                         to land versus house."

                                               - An employee purchased a home lot from the Authority
                                         in February 1998 at a price of $12,500, which was the price at
                                         which the Authority sold other comparable lots within the
                                         development to members of the general public. The employee
                                         originally was given a deferred purchase amount2 on the lot of
                                         $20,000 -- again comparable to the deferred purchase amounts
                                         given for other comparable lots within the development.
                                         However, in April 2000, the employee was awarded a new
                                         deferred purchase amount of $27,500, which effectively reduced
                                         her purchase price for the lot from $12,500 to only $5,000.
                                         Further, the employee received $42,000 in assistance from the
                                         Federally-funded HOME Program, consisting of a $30,000 grant
                                         and a $12,000 loan at 1 percent interest.

                                         The Authority should discontinue the practice of giving its
                                         employees preferential treatment in the purchase of homes and
                                         lots or access to housing-related financial assistance because such
                                         action undermines the integrity of the Authority and, in our
                                         opinion, is a violation of the Authority’s public trust. The
                                         Authority’s employees should be required to meet the same
                                         eligibility requirements and abide by the same policies,
                                         procedures, and restrictions that apply to members of the general
                                         public.

Participants Did Not                     The Authority used eligibility ratios established by the U.S.
Always Meet Eligibility                  Department of Housing and Urban Development (HUD) for
Requirements                             Federal Housing Administration (FHA) insured mortgages, the
                                         U.S. Department of Agriculture (USDA) for Rural Development
                                         mortgages, and the Veteran Administration (VA) for VA
                                         mortgages. The Authority also used an in-house eligibility ratio
                                         for land sales. The eligibility ratios measured the percentage of
                                         an applicant’s gross monthly income devoted to mortgage
__________
2
  All lots sold by the Authority have a "deferred purchase amount," which is the difference between the selling price
and the market value of the property. Lots are sold to the public at prices below market value, with the Authority
funding the "deferred purchase amount."


                                                         18
payments (mortgage ratio) and the percentage of gross monthly
income devoted to all debt payments (debt ratio). For FHA and
Rural Development mortgages, the maximum allowable mortgage
ratio was 29 percent and the maximum allowable debt ratio was
41 percent. For VA mortgages and Authority land sales, only the
41 percent debt ratio was used. The Authority also uses
Federally-mandated maximum income requirements that varied
depending on household size and location of property.

We reviewed the case files for a sample of 50 individuals who
received housing assistance from the Authority in order to
determine whether they met all eligibility requirements. Of the
50 program participants, 40 met the eligibility requirements, 6 did
not meet the eligibility requirements, 3 case files did not contain
sufficient income and debt information to determine eligibility,
and 1 case file could not be located. For example:

      - A participant was allowed to purchase a home lot in
December 1994 although he had a debt ratio of 76 percent, which
far exceeded the 41 percent maximum allowable debt ratio. The
participant’s account was frequently delinquent, sometimes by as
much as 3 months, and his payment checks were routinely returned
by the bank for insufficient funds.

     - A participant was allowed to purchase a home lot for
$20,000 although her mortgage ratio was 54 percent, which
exceeded the 41 percent maximum allowable debt ratio.

      - A participant was allowed to gain higher priority
consideration of her application by using the "priority number"
assigned to her mother, who was the Authority’s Executive
Director at the time. It appears that the Authority did not conduct
a review of the participant’s eligibility, because the case file did
not contain any income, savings, or credit history information
used to make eligibility determinations. In addition, one of the
checks the individual issued to the Authority for the down
payment on the purchase of land was returned by the bank for
insufficient funds, and the amount of that check was not paid to the
Authority until a year later when the final balance on the land
purchase price was paid off.

We believe that the Authority should adhere to the eligibility
ratios prescribed for Federal mortgage loan programs and for the
Authority’s own land sales program. In addition, the Authority
should ensure that only eligible clients receive assistance because
it appears that clients with mortgage and/or debt ratios that


             19
                               exceeded the prescribed maximum allowable ratios typically
                               became delinquent on their loans.


                               The Housing Finance Authority did not have adequate control
MANAGEMENT OF                  over receivables, collections and deposits, and bank accounts and
FINANCIAL                      did not generate sufficient revenues to meet operating expenses or
OPERATIONS                     fund its required infrastructure investments. As a result, the
                               Authority (1) was owed about $809,500 loaned to a rental
                               management firm and $38,500 in rental charges, (2) did not have
                               current and accurate information on the financial status of the
                               Authority’s accounts, and (3) was unable to effectively use bond
                               proceeds totaling $33.7 million that was available to provide
                               mortgage loans to eligible applicants.

Two Housing Developments In 1998, the Authority loaned $809,505 from its Federally-funded
Owed the Authority       HOPE3 account to the Profit Hills and Bethlehem Village rental
$809,505                 developments for rehabilitation of the units. The loans were
                         made with the approval of HUD, but with the understanding that
                         the funds were to be repaid to the HOPE3 account. However, we
                         found that a repayment schedule had not been established by the
                         Authority because the rental developments did not have surplus
                         funds from which to repay the loans and, as of June 2001, no
                         payments had been made on the loans. The Authority’s
                         Comptroller told us that in June 2001 the Authority requested
                         payment in writing and that a substantial payment on the loan was
                         expected soon from the private firm that manages the
                         developments. The Comptroller also stated that the Authority did
                         not request repayment before because the HOPE3 funds had not
                         been urgently needed.

Rental Accounts Totaling       The Authority had four rental properties that were managed
$38,500 Were Delinquent        internally: an apartment building in Anna’s Retreat, an apartment
                               at Hillside Condominiums, and commercial property in
                               Frenchtown, all on St. Thomas, and a apartment building in Estate
                               Concordia on St. Croix that has since been demolished. The
                               Authority was owed more than $38,500 in delinquent rental
                               payments from seven tenants in these rental properties. For
                               example:

                                     - A current Authority employee resided in one of the
                               properties and owed the Authority back rental payments totaling
                               $10,690. During the period of September 1, 1997 (the start date
                               of the lease) to June 25, 2001, the employee made only five
                               payments totaling $7,750 on the account for accrued rental
                               charges, late fees, and returned check fees totaling $18,440. The


                                            20
                           only collection action initiated by the Authority was a letter sent
                           to the employee in September 1999, and the employee has made
                           no payments on the account since July 2000. The employee has
                           been allowed to continue living in the property although the
                           Authority, in a February 4, 1999 letter, notified the employee and
                           other persons residing in the development that the Authority
                           would be discontinuing the rental housing operations effective
                           December 31, 1999 and that the property had to be vacated by that
                           date. At the time of our review, the employee was the only person
                           residing on the property, as the other individuals had been forced
                           to move out by the Authority.

                                 - A tenant in another Authority property had a delinquent
                           rental balance of $5,550 since April 2000, and the Authority had
                           not initiated any collection action.

                           The Authority’s Executive Director stated that the only way for
                           the Authority to receive payment on the delinquent accounts was
                           to garnish the tenants’ salaries through legal action. However, the
                           Authority had obtained a judgment against only one of the seven
                           delinquent tenants. In our opinion, the Authority should initiate
                           formal collection action against the other six delinquent tenants.

Collections and Deposits   The Authority did not have adequate controls over collections and
Were Not Adequately        deposits. We reviewed receipts for 5 months in 1999 and
Controlled                 5 months in 2000 and found that the Authority did not always
                           issue receipts in sequential order. For example, receipt
                           number 531 was issued on June 14, 1999, but receipt number 530
                           was issued on June 16, 1999, or 2 days later. Receipt
                           number 9381 was issued on August 2, 2000, but receipt
                           number 9380 was not issued until September 2, 2000, or a month
                           later. Additionally, receipt numbers 9401 and 9409 were issued
                           in September 2000, but receipt numbers 9400 and 9408 had not
                           been issued and were still in the receipt book.

                           We also found that in June 1999 the Authority collected $250
                           from three individuals for priority number fees. However, the
                           Authority’s accounting division did not have any record that it had
                           received the $250 for deposit into the Authority’s operating
                           account. Because the Authority did not maintain a log of incoming
                           receipts, there was no way to trace the funds.

                           We also found at least one instance where the Authority issued a
                           receipt for funds that it had not received. In this case, an
                           individual was given a receipt on December 29, 1999 for
                           payment of a $100 priority number fee. However, the accounting


                                        21
                           division could not locate any documentation showing that the
                           money was deposited. Upon our inquiry, we were informed by
                           an Authority employee that the receipt was prepared before the
                           money was received. The client was to have returned at a later
                           time with a money order to actually pay the priority number fee.
                           Although a receipt was issued and a priority number assigned to
                           the individual, the client never returned to make the promised
                           payment. Based on our inquiry, the client’s name was to be
                           removed from the Authority’s priority applicant list.

                           In our opinion, the Authority should implement formal procedures
                           to require that receipts are issued in strict numerical sequence and
                           only upon receipt of payment and that collections and deposits are
                           recorded and reconciled on a daily basis.

Bank Accounts Were         The Authority had a total of 16 active bank accounts (13 for local
Not Reconciled Timely      funds and 3 for Federal funds). We selected for review a random
                           sample of five of the local accounts and also reviewed the three
                           Federal accounts. Although we found that the bank accounts were
                           generally under adequate control (checks were issued for
                           legitimate purposes, were issued in numerical sequence, and were
                           countersigned by two Authority officials), we noted that the bank
                           accounts were not reconciled in a timely manner. Specifically, as
                           of June 2001, none of the 16 accounts had been reconciled since
                           December 1999, or a period of 1 1/2 years. The Authority’s
                           Comptroller told us that reconciliations were not performed
                           because the individual who had that responsibility had resigned,
                           and assigning the task to another accounting division employee
                           would pose a conflict with the duties of those employees with
                           regard to processing and accounting for checks written against the
                           accounts. Because the monthly reconciliation of bank accounts is
                           an important element of good internal controls, we believe that,
                           if necessary, the responsibility for reconciling the Authority’s
                           bank accounts should be assigned to an employee who does not
                           work in the accounting division. Based on our inquiry, the former
                           employee who used to reconcile the bank accounts was rehired in
                           June 2001 specifically to bring the reconciliations up to date. At
                           the September 26, 2001 exit conference on the preliminary draft
                           of this report, the Authority’s Comptroller stated that the bank
                           account reconciliations had been brought up to date through
                           August 2001.

Financial Transactions     We also found that, as of June 2001, the Authority had not
Were Not Recorded Timely   recorded any financial transactions (primarily revenues and
                           expenditures) to its accounting system for the first 6 months of
                           calendar year 2001. As a result, the Authority’ financial


                                        22
                      managers did not have basic accounting information necessary to
                      effectively manage the Authority’s financial operations. The
                      Comptroller stated that he was always able to keep track of the
                      financial status of the Authority’s various bank accounts because
                      he kept close watch over the bank statements. However, the
                      Authority had 16 active bank accounts, making it extremely
                      difficult for one individual to keep track of the Authority’s
                      finances on a consistent basis without up-to-date postings to its
                      accounting system. At the September 26, 2001 exit conference on
                      the preliminary draft of this report, the Authority’s Comptroller
                      stated that the recording of financial transactions had been brought
                      up to date through August 2001.

Revenues Were Not     The Housing Authority did not generate sufficient revenues to
Sufficient to Cover   meet its operating needs or to fund required infrastructure
Operating Costs and   investments. Infrastructure funds were critical to the Authority
Fund Infrastructure   because they allowed the Authority to finance the construction of
                      roads and other basic infrastructure improvements necessary to
Investments
                      make Authority land ready for sale to potential home owners or
                      for construction of housing units by potential developers.
                      However, as of the end of fiscal year 2000, the Authority’s
                      infrastructure fund had a balance of only $230,321 and the
                      Housing Trust Fund established by the Low and Moderate Income
                      Affordable Housing Act had not been funded and had a $0
                      balance. Additionally, the Authority’s revenues totaled only
                      about $280,000 in fiscal year 1999 and $590,000 in fiscal year
                      2000, while annual payroll costs alone totaled more than
                      $960,000. As a result, the Authority could not pursue the
                      development of land at Estate Solitude on St. Croix and at Abbey
                      Hill and Estate Fortuna on St. Thomas. To further exacerbate the
                      Authority’s financial problems, it owed the Government of the
                      Virgin Islands about $3 million for prior year payroll costs, the
                      Government Employees Retirement System about $25,000 for
                      employee retirement contributions, and the Virgin Islands Water
                      and Power Authority about $257,000 for electrical and potable
                      water service.

                      Because it did not have funds to make infrastructure
                      improvements for new housing developments, the Authority was
                      unable to effectively use as much as $33.7 million that had been
                      available through two bond issues for the issuance of mortgage
                      loans to potential home owners. For example:

                           - In 1995, the Authority issued $27 million in bonds for
                      low and moderate income housing mortgages. However, the



                                   23
                         Authority used only $6.2 million before the bonds expired and the
                         remaining $20.8 million had to be refunded to bondholders.

                               - In 1998, the Authority again issued $15 million in bonds
                         to finance low-interest mortgage loans to potential low and
                         moderate income homeowners. However, the Authority only used
                         $2.1 million for its intended purpose and, as of June 2001, the
                         remaining $12.9 million balance remained available but unused.

                         One alternative that might be available to the Authority to finance
                         critically-needed infrastructure improvements at proposed
                         housing development sites is to tap some of the smaller accounts
                         (with fiscal year 2000 balances ranging from $299,870 to
                         $422,330) that the Authority has set aside for other
                         housing-related purposes. As long as these other accounts are not
                         legally restricted the purposes for which set aside by the
                         Authority, the funds could provide "seed money" to help jump-
                         start proposed housing developments, thus both assisting potential
                         low and moderate homeowners and helping to improve the
                         Authority’s recurring revenue stream.

Former Authority Board   On February 5, 1999, an attorney, who was a member of the
Member May Have          Authority’s Board of Directors at the time, wrote to the
Violated Conflict of     Authority’s Executive Director stating that she was willing to
Interest Laws            honor a request of the Board that she provide legal services to the
                         Authority. The attorney agreed to provide the services for a
                         retainer fee of $7,500 and at an hourly rate of $175. The retainer
                         fee of $7,500 was paid to the attorney on February 8, 1999.

                         Questions soon arose as to whether the Board had actually
                         requested the attorney’s services and as to the appropriateness of
                         the contract. On April 16, 1999, the Authority’s legal counsel
                         provided a legal opinion in which she concluded that "based on
                         the law and the By-Laws of the Authority, [the attorney] was not
                         authorized to enter into any contractual arrangement with the
                         Authority for the rendering of legal services. Her letter of
                         February 5, 1999 was a fraudulent misrepresentation and
                         consequently, she must return the money to the Authority." The
                         Authority’s legal counsel also concluded that "[the attorney’s]
                         action violates Section 1102 of Title 3, V.I.C. Chapter 37
                         (Conflicts of Interest) and is subject to further action as provided
                         in Section 1108."

                         On April 23, 1999, the Authority’s Executive Director wrote to
                         the attorney, requesting that the $7,500 retainer fee be returned to
                         the Authority. On October 28, 1999, the Executive Director


                                      24
                    wrote to the Chairman of the Board of Directors, indicating that
                    several attempts to recover the $7,500 had been unsuccessful and
                    that the matter had been referred to the Attorney General’s Office.
                    At the September 26, 2001 exit meeting on the preliminary draft
                    of this report, the Authority’s Acting Executive Director stated
                    that the $7,500 retainer fee had still not been recovered.



RECOMMENDATIONS
                    We recommend that the Board of Directors of the Virgin Islands
TO THE VIRGIN       Housing Finance Authority require the Executive Director to:
ISLANDS HOUSING
FINANCE AUTHORITY         1. Ensure that the competitive procurement procedures
                    contained in the Virgin Islands Code and in-house policies,
                    including the existing contractor evaluation committee, are used
                    for all of the Authority’s procurement actions or that the reasons
                    why the competitive procurement procedures were not used are
                    fully documented in the appropriate contract files.

                         2. Require that affordable housing contractors submit
                    formal change order requests to fully document and justify any
                    claims for cost overruns and that payments to contractors for cost
                    overruns are not released without such documentation.

                          3. Ensure that only applicants who meet eligibility
                    requirements applicable to Federal and in-house housing
                    programs administered by the Authority are allowed to participate
                    in those programs.

                          4. Develop comprehensive guidelines for handling
                    applications for housing assistance from Authority employees to
                    ensure that such employees are not given preferential treatment
                    not available to members of the general public. Consideration
                    should also be given to requiring that the two employees
                    discussed in the finding pay the appropriate additional amounts
                    for the land they purchased from the Authority.

                         5. Immediately discontinue the practice of allowing
                    employees to obtain personal loans from the Authority’s accounts.

                         6. Initiate collection action against all delinquent
                    borrowers and tenants to recover outstanding balances due the
                    Authority.



                                 25
                                  7. Develop comprehensive guidelines for the cash
                            collection process to ensure that receipts are issued in sequential
                            order and only at the time of collection, receipts are promptly
                            deposited, and that collections and deposits are reconciled on a
                            daily basis and any differences investigated.

                                 8. Assign the task of performing monthly reconciliations of
                            bank accounts to a qualified employee who does not have
                            accounting or custodial responsibilities related to the bank
                            accounts.

                                  9. Take immediate steps to ensure that financial
                            transactions, including revenues and expenditures, are posted to
                            the Authority’s accounting system on a regular (at least monthly)
                            basis.

                                10. Submit a formal request to the Governor of the Virgin
                            Islands for funding to serve as "seed money" to finance
                            infrastructure improvements needed to facilitate the construction
                            of affordable housing developments.

                                11. Formally followup with the Attorney General to
                            determine the status of the attempts to recover the $7,500 retainer
                            fee paid to a former Board member and to urge the Attorney
                            General to initiate legal proceedings against the former Board
                            member for recovery of the $7,500 retainer fee and for possible
                            violation of the conflict of interest laws contained in the Virgin
                            Islands Code.

                            We also recommend that the Legislature of the Virgin Islands:
TO THE LEGISLATURE
OF THE VIRGIN         12. Discontinue the practice of directly appropriating funds
ISLANDS            for payment to affordable housing contractors without the input
                            and concurrence of the Authority’s Board. In addition, the
                            Legislature should allow the judicial process to work, without
                            legislative involvement, in cases of disputes between the
                            Authority and affordable housing contractors.

                            The November 19, 2001 response (Appendix 3) to the draft report
AUDITEE RESPONSE            from the Virgin Islands Housing Authority expressed concurrence
                            with 10 of the 11 recommendations addressed to the Authority.
                            However, the response expressed nonconcurrence with
                            Recommendation 10. Additionally, we did not receive a
                            response to Recommendation 12 from the Legislature of the
                            Virgin Islands.



                                         26
                Based on the Authority’s response, we consider
OFFICE OF       Recommendations 1, 2, 3, 5, 6, 8, 9, and 11 resolved and
INSPECTOR       implemented; Recommendations 4 and 7 resolved but not
GENERAL REPLY   implemented; and Recommendation 10 unresolved (see
                Appendix 4). In addition, because we did not receive a response
                from the Legislature, we consider Recommendation 12
                unresolved (see Appendix 4).

                Recommendation 10. Nonconcurrence.

                      Authority’s Response. The Authority did not concur with
                the recommendation to "consider the possibility of transferring a
                portion of the unobligated funds from the Authority’s
                discretionary accounts to the infrastructure fund to serve as ‘seed
                money’ to finance infrastructure improvements needed to facilitate
                the construction of affordable housing developments." However,
                the Authority did agree that without funding for infrastructure
                improvements, it could not effectively use bond proceeds that
                were available to finance loans and grants to potential low
                income housing home owners. The Authority stated that the
                Government of the Virgin Islands should provide adequate
                funding to carry out the affordable housing program.

                      Office of Inspector General Reply. In light of the
                Authority’s response, we have revised Recommendation 10 and
                request that the Authority consider the revised recommendation
                (see Appendix 4).




                             27
APPENDIX 1 - MONETARY IMPACT
                                   Funds To Be Put   Unrealized   Questioned
FINDING AREAS                       To Better Use*   Revenues*      Costs*
Selection of Development
   Contractors                       $2,800,000

Determination of Participant
  Eligibility                              30,866     $29,700

Management of Financial
  Operations                         33,700,000       848,250      $7,500

   Total                            $36,530,866      $877,950      $7.500




__________
* Amounts represent local funds.




                                      28
APPENDIX 2 - PRIOR AUDIT REPORTS
                             The October 1989 audit report "Housing Programs, Housing
OFFICE OF INSPECTOR Finance Authority, Government of the Virgin Islands" (No. 90-09)
GENERAL REPORT      stated that the Authority did not effectively manage its housing
                             programs and account for funds. Specifically, although the
                             Authority had successfully issued bonds of $22.6 million in 1985,
                             it did not finance planned home mortgages with bond proceeds,
                             and all of the bonds were retired in 1988. The report also stated
                             that the Authority had not implemented sufficient financial and
                             operational controls before the bonds were issued and therefore
                             did not accomplish its housing goals. Also, the Authority lost
                             approximately $78,000 by issuing the bonds and subsequently
                             retiring them without making use of the bond proceeds. Our
                             current audit also disclosed that bonds of $27 million issued in
                             1995 and $15 million issued in 1997 were not fully utilized.




                                          29
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                   30
     APPENDIX 3
      Page 2 of 12




31
     APPENDIX 3
      Page 3 of 12




32
     APPENDIX 3
      Page 4 of 12




33
     APPENDIX 3
      Page 5 of 12




34
     APPENDIX 3
      Page 6 of 12




35
     APPENDIX 3
      Page 7 of 12




36
     APPENDIX 3
      Page 8 of 12




37
     APPENDIX 3
      Page 9 of 12




38
     APPENDIX 3
     Page 10 of 12




39
     APPENDIX 3
     Page 11 of 12




40
     APPENDIX 3
     Page 12 of 12




41
APPENDIX 4 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                        Action Required

      1, 2, and 3        Implemented.    No further action is required.

          4              Resolved; not   Provide this office with supporting
                         implemented.    documentation upon completion of guidelines for
                                         handling applications from Authority employees.

       5 and 6           Implemented.    No further action is required.

          7              Resolved; not   Provide this office with supporting
                         implemented.    documentation upon completion of guidelines for
                                         handling collections and deposits.

       8 and 9           Implemented.    No further action is required.

          10             Unresolved.     Consider the revised recommendation and
                                         provide a response that includes a plan of action
                                         including the target date and title of the official
                                         responsible for implementing the
                                         recommendation.

          11             Implemented.    No further action is required.

          12             Unresolved.     Provide a response from the Legislature that
                                         includes a plan of action including the target date
                                         and title of the official responsible for
                                         implementing the recommendations.




                                         42
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and management
of the Department of the Interior (DOI). We accomplish our
mission in part by objectively and independently assessing major
issues and risks that directly impact, or could impact, the DOI’s
ability to carry out its programs and operations and by timely
advising the Secretary, bureau officials, and the Congress of
actions that should be taken to correct any problems or
deficiencies. In that respect, the value of our services is linked to
identifying and focusing on the most important issues facing DOI.



How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You can
report allegations to us by:

Mail:          U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

Phone:         24-Hour Toll Free                      800-424-5081

               Washington Metro Area                  202-208-5300
               Hearing Impaired                       202-208-2420
               Fax                                    202-208-6023

               Caribbean Region                       703-487-8058
               Northern Pacific Region                671-647-6060

Internet:      www.oig.doi.gov/hotline_form.html
